No.

IN THE
SUPREME COURT OF THE UNITED STATES

DALE CHESTER HOLCOMBE,
Petitioner,
v.
STATE OF FLORIDA,
Respondent.

On Petitioner for Writ of Certiorari
To the Florida Fifth District Court of Appeal

MOTION TO PROCEED IN FORMA PAUPERIS

CRYSTAL MCBEE FRUSCIANTE
Frusciante Law Firm, P.A.
11110 West Oakland Park Blvd.
Suite 388
Sunrise, Florida 33351
(954) 551-2350
FL Bar No. 802158
Email: crystal@frusciantelaw.com
COUNSEL FOR THE PETITIONER

1

The petitioner, DALE HOLCOMBE, asks leave to proceed in forma pauperis
to file the attached petition for writ of certiorari.
Petitioner, DALE HOLCOMBE, has previously been granted leave to proceed
in forma pauperis in the following courts:
The Seventh Judicial Circuit Court entered an order finding Petitioner
indigent September 28, 2016 for the purpose of all trial costs.
The Seventh Judicial Circuit Court further found Petitioner indigent for purposes
of appellate counsel and appellate costs on October 30, 2018
Petitioner, DALE HOLCOMBE’S, affidavit or declaration is not attached,
however counsel has provided Petitioner with the affidavit by mail and is awaiting
its return by mail.
Petitioner, DALE HOLCOMBE, prays the Court for leave to file the attached
petition for a writ of certiorari without prepayment of costs and to proceed in forma
pauperis.
Respectfully submitted,
/s/__Crystal McBee Frusciante____
CRYSTAL MCBEE FRUSCIANTE
Frusciante Law Firm, P.A.
11110 West Oakland Park Blvd., Suite 388
Sunrise, Florida 33351
(954) 551-2350
FL Bar No. 802158
Email: crystal@frusciantelaw.com

2

CERTIFICATE OF SERVICE
I HEREBY CERTIFY a true and correct copy of the foregoing instrument was
furnished to the Office of the Attorney General, 444 Seabreeze Blvd, Suite 500
Daytona Beach, Florida 32118 by U.S. mail delivery on September 21, 2020.

/s/__Crystal McBee Frusciante____
CRYSTAL MCBEE FRUSCIANTE
Frusciante Law Firm, P.A.
11110 West Oakland Park Blvd., Suite 388
Sunrise, Florida 33351
(954) 551-2350
FL Bar No. 802158
Email: crystal@frusciantelaw.com

3

